<html>
<title> - H.R. 2693, THE HOLOCAUST VICTIMS INSURANCE RELIEF ACT OF 2001</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
     H.R. 2693, THE HOLOCAUST VICTIMS INSURANCE RELIEF ACT OF 2001
=======================================================================



                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 2693

TO PROVIDE FOR THE ESTABLISHMENT OF THE HOLOCAUST INSURANCE REGISTRY BY 
THE ACHIVIST OF THE UNITED STATES AND TO REQUIRE CERTAIN DISCLOSURES BY 
                 INSURERS TO THE SECRETARY OF COMMERCE

                               __________

                           SEPTEMBER 24, 2002

                               __________

                           Serial No. 107-161

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform




                           U.S. GOVERNMENT PRINTING OFFICE
84-701                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                 MAJOR R. OWENS, New York
ADAM H. PUTNAM, Florida              PAUL E. KANJORSKI, Pennsylvania
JOHN SULLIVAN, Oklahoma              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Bonnie Heald, Staff Director
                       Henry Wray, Senior Counsel
                          Chris Barkley, Clerk
                     Michelle Ash, Minority Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 24, 2002...............................     1
Text of H.R. 2693................................................     4
Statement of:
    Bell, Randolph Marshall, special envoy for Holocaust Issues, 
      Department of State........................................    21
    Kurtz, Michael, Assistant Archivist for Records Services, 
      National Archives and Records Administration; and Greg 
      Bradsher, Director of the Holocaust-Era Assets Records 
      Project, National Archives and Records Administration......    28
    Tick, Leslie, senior staff counsel, California Department of 
      Insurance..................................................    36
    Waldman, David, vice president and chief operations counsel, 
      MONY Life Insurance Co.....................................    49
Letters, statements, etc., submitted for the record by:
    Bell, Randolph Marshall, special envoy for Holocaust Issues, 
      Department of State, prepared statement of.................    23
    Bradsher, Greg, Director of the Holocaust-Era Assets Records 
      Project, National Archives and Records Administration, 
      prepared statement of......................................    33
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Kurtz, Michael, Assistant Archivist for Records Services, 
      National Archives and Records Administration, prepared 
      statement of...............................................    30
    Tick, Leslie, senior staff counsel, California Department of 
      Insurance, prepared statement of...........................    38
    Waldman, David, vice president and chief operations counsel, 
      MONY Life Insurance Co., prepared statement of.............    51
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    14















     H.R. 2693, THE HOLOCAUST VICTIMS INSURANCE RELIEF ACT OF 2001

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn and Schakowsky.
    Also present: Representative Waxman.
    Staff present: Bonnie Heald, staff director; Henry Wray, 
senior counsel; Dan Daly, counsel; Chris Barkley, clerk; 
Michelle Ash, minority counsel; David McMillen, minority 
professional staff member; Jean Gosa, minority assistant clerk; 
Jonathan Samuels, legislative director for Ms. Schakowsky; and 
Zahava Goldman, legislative assistant for Mr. Waxman.
    Mr. Horn. We might as well swear in the witnesses, and I 
think most of you know to stand up, raise your right hands and 
if you have staff behind you, please get them to take the oath.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all five witnesses have 
taken the oath.
    This is an investigative committee and we thank you for 
coming. And automatically when we call on you, we will 
automatically put that in the hearing. Today's hearing deals 
with a subject that involves the most basic considerations of 
humanity and morality. The bill we are considering attempts to 
bring some measure of justice to many victims of the Holocaust 
and their heirs.
    H.R. 2693, the ``Holocaust Victims Insurance Relief Act of 
2001,'' was introduced by the distinguished ranking member of 
our full committee, Mr. Waxman. Both the ranking member of this 
subcommittee, Ms. Schakowsky, and I are among the bill's many 
cosponsors. The ultimate purpose of this bill is to enable 
Holocaust victims and survivors and their heirs to recover on 
insurance policies that were issued during the Nazi era. The 
insurance policies and other evidence needed to establish 
entitlement to payment were typically stolen from these 
claimants by the Nazis or were otherwise destroyed. Thus, in 
many cases, insurance companies have the only records in 
existence that could support their claims against the policies.
    H.R. 2693 requires insurance companies doing business in 
the United States to provide the Commerce Department with 
identifying information on all individuals to whom they issued 
policies during the Nazi regime. This information would then be 
made available to potential claimants through a registry 
maintained by the National Archives and Records Administration.
    This bill is modeled on legislation that has been enacted 
in several States. For a number of years, attempts have been 
made to pry Holocaust-era insurance information from the 
insurance companies through international negotiations. 
However, those efforts have been painfully slow. That lack of 
progress is one reason for pursuing legislative remedies at the 
State and Federal levels of government. Last week, there was a 
major breakthrough in the international efforts.
    During today's hearing, we will explore the impact of that 
development on the bill before us. I do not know the answer to 
that question. What I do know is that we must get to an 
appropriate solution quickly. Holocaust victims are literally 
dying while their insurance claims remain unsatisfied.
    I welcome all of you today and the wisdom you can bring to 
this. I look forward to discussing with you how we can best 
resolve this terrible injustice once and for all.
    [The prepared statement of Hon. Stephen Horn and the text 
of H.R. 2693 follow:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Horn. I now am delighted to recognize a member of the 
Democratic side of the full committee, Mr. Waxman, who has been 
with this problem for many years, and we hope that he can be 
satisfied by it also.
    Mr. Waxman. Thank you very much, Mr. Chairman. And let me 
thank you for holding this hearing today and joining in support 
of this legislation. What we are trying to do is rectify a 
terrible injustice. The bill that is the subject of this 
hearing, the Holocaust Victims Insurance Relief Act, H.R. 2693, 
addresses one of the most difficult problems faced by Holocaust 
survivors and their families when they seek restitution from 
insurance companies that have refused to pay claims held by 
victims of Nazi persecution, and that is how to identify the 
insurance company that issued the policy.
    I want to acknowledge the fact that not only Chairman Horn, 
but also Ranking Member Schakowsky is an original cosponsor of 
the legislation before us today, and I am very pleased that we 
are holding this hearing to help achieve justice for Holocaust 
survivors and their families.
    The history of Holocaust insurance is shameful. After the 
war, survivors filing claims for life insurance often were 
rejected for the cruelest of reasons. Some survivors were 
rejected because they could not produce death certificates for 
loved ones who perished in the Nazi concentration camps. Other 
insurance companies took advantage of the fact that the 
claimants had no policy documents to prove their policy 
existed. In many cases, survivors recalled that their families 
had insurance, but could not name the company holding their 
assets.
    In 1998, the International Commission on Holocaust-Era 
Insurance Claims, known as ICHEIC, was set up as a forum for 
the insurance companies to expeditiously settle outstanding 
policies. In November 2001, our full committee held an 
oversight hearing on the ICHEIC process and we found the work 
of ICHEIC disheartening. At the time, ICHEIC had received 
77,800 claims for restitution but had resolved only 758, less 
than 1 percent. Today, nearly a year later, these statistics 
are not much better.
    One of the main problems confronting the ICHEIC process was 
the difficulty in getting names of Holocaust-era policyholders. 
At the time of the hearing, less than 10,000 policyholders' 
names had been published by the companies involved in ICHEIC, 
and most of those names came from just one company. Without 
comprehensive policyholder lists to search for the names of 
family members, more than 80 percent of ICHEIC applicants filed 
incomplete claims, naming no insurance company at all. As a 
result, the rate of claims approval was very small.
    A representative case is that of Israel Arbeiter, a 
Holocaust survivor who was born in Poland and came to the 
United States after being liberated from Auschwitz. As he 
testified at last year's hearing, Mr. Arbeiter knew his family 
had insurance policies, because he vividly remembers that every 
week an agent of an insurance company visited his home to 
collect premiums. The records were kept in a ledger left behind 
when the Nazi SS stormed into his home in February 1941. But he 
never knew which company had issued the policies of his parents 
and uncles who were killed at the Treblinka death camp. As a 
result, ICHEIC has been unable to resolve his claim.
    The purpose of the legislation we are considering today is 
to help Mr. Arbeiter and countless others who are in the same 
situation. This bill requires all insurance companies operating 
in the United States to provide information about Holocaust-era 
policyholders to the U.S. Government for publication by the 
Holocaust-era Assets Recovery Project of the National Archives.
    We know this bill can work. It was patterned after a 
California State law which has already produced positive 
results within California. We will hear today from MONY Life 
Insurance, an insurance company that is fully complying with 
the California law. Because of the California law, policy 
information is getting out of companies' archives and into the 
hands of rightful beneficiaries.
    There has been one positive development recently. The 
chairman alluded to it. Today we will have the opportunity to 
hear about a new agreement that was announced last week between 
ICHEIC and the companies in the German Insurance Association. 
Under the agreement, the names of Jewish policyholders who 
lived in Germany after 1933 are to be released publicly. 
Assuming that the German insurance companies actually comply 
and that a reliable list of Jews who lived in Germany can be 
compiled, this could help many families in filing restitution 
claims.
    This agreement, as welcome as it may be, will not solve the 
problems. For one thing, it will not help Mr. Arbeiter and 
others like him, because he came from areas under Nazi control, 
not Germany proper.
    What's clearly needed is a legislative response by Congress 
that will in effect compel recalcitrant insurance companies to 
provide complete lists of Holocaust-era policyholders. That's 
the goal of H.R. 2693.
    Again, Mr. Chairman, I want to commend you for holding this 
hearing and I look forward to the testimony of the witnesses 
today so that we can have a record to learn from as we consider 
this legislation.
    [The prepared statement of Hon. Henry A. Waxman follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. I am delighted also that the ranking member on 
the subcommittee is Jan Schakowsky, the gentlewoman from 
Illinois.
    Ms. Schakowsky. I thank you, Mr. Chairman and Mr. Waxman, 
for the work that you and your staff have done to put together 
this important hearing on H.R. 2693, the Holocaust Victims 
Insurance Relief Act. I was proud to join Mr. Waxman, the 
author, as an original cosponsor in introducing this 
legislation, and I really want to commend him and thank him for 
his leadership and the leadership that he continues to 
demonstrate on this subject.
    I represent the Ninth Congressional District of Illinois, 
which includes the village of Skokie, home to one of the 
greatest survivor communities in the country. Since before 
coming to Congress, I had been moved by stories of survivors in 
my district that lost everything during the Holocaust. These 
people lost their families, property, bank accounts. They came 
to this country with nothing, and struggled for years and years 
to cope with economic hardship, discrimination, and emotional 
trauma. Many were children at the time of the Holocaust. Now, 
years later, they are senior citizens. So representatives of 
the families are dwindling reminders of our historic and moral 
imperative to provide the utmost measure of justice to those 
who suffered at the hands of the Nazi regime.
    Today's hearing will focus on insurance and a legislative 
proposal that many of us believe to be an appropriate mechanism 
to force progress on this issue after survivors and heirs of 
victims have waited for over 50 years to receive acknowledgment 
and restitution for their suffering. With the assistance of 
major insurance companies, some of which operate in the United 
States today, the Nazi regime took over and liquidated policies 
that were held by Jews that were killed, sent to concentration 
camps, and forced into slave labor. Those who died had paid 
into dowry, education, and life insurance policies for years. 
Their spouses and children never received the benefits they 
were owed. Others who survived were never paid for the 
investment they had made in various insurance policies.
    Besides the reprehensible foot-dragging and refusal to 
accept responsibility for the shameful acts of their executives 
or their government during the Nazi era, Holocaust-era policy 
writers have to date not provided victims or heirs access to 
lists of those policies they wrote during that time period. 
Without access to names, survivors and victims' families have 
no way to know if they qualify for compensation under the 
ICHEIC agreement. I have had scores of constituents contact me 
with questions, dismayed that the process has gone on for so 
long and that they are still without answers or justice.
    There are still some 10,000 survivors in Illinois and it is 
my understanding that roughly 1,100 of them have filed claims 
for insurance. To my knowledge, only a handful have received 
offers for payments. This is an issue that is beyond urgency. 
There are serious problems that need to be resolved, and 
Congress has responsibility to make sure that is done so that 
those who have lived to recall the Holocaust may also have some 
small measure of justice and dignity paid to them.
    Last week it has been mentioned that twice there was a 
settlement reached to govern the framework for publication of 
lists and the processing of claims for policies that were 
issued in Germany. While the settlement is not perfect because 
it is limited in scope, it does represent significant progress. 
I want to mention the fact that one of the hold-ups during 
these negotiations has been that the companies were demanding 
compensation for administrative costs that occurred as a result 
of their participation in ICHEIC and demanded that compensation 
come from funds contributed for the payment of claims. That was 
an unreasonable request, and I am pleased that ultimately--and 
because of the leadership of Nat Shapo, the chairman of the 
National Association of Insurance Commissioners and our 
Illinois insurance commissioner--because of his work and the 
work of the committee on this subject, and other people, that 
demand was dropped.
    While last week's settlement does demonstrate progress, our 
work is not done. And that is why efforts to pass H.R. 2693 are 
still appropriate. It would improve upon all progress to date. 
Their bill requires that the U.S. Department of Commerce 
disclose critical information, names and places of birth listed 
on all life, dowry, education, and property insurance about 
policies that were in effect in all regions under Nazi control 
between 1933 and 1945. In addition, the bill requires the 
disclosure of the name of the company that issued the policy 
and the name of the company responsible for those policies 
today. The information would be made public through a registry 
operated by the National Archives.
    Another important provision of the bill is the enforcement 
mechanism, $5,000 a day for noncompliance. The history of this 
process and the behavior of the companies have demonstrated 
that only with the threat of financial consequences can results 
be achieved. Some States, including Illinois, have taken steps 
of their own toward revoking or considering the revocation of 
licenses of companies that do not operate as good-faith 
partners in the struggle to provide justice to Holocaust 
survivors. The Federal Government should follow suit. We should 
send a loud, clear, and long-overdue message to companies that 
do business in the United States that unless they agree to stop 
their dilatory and evasive tactics, own up to their shameful 
past, and provide needed information to the public, they should 
not expect to reap the large profits that they have come to 
enjoy from their customers in this country. H.R. 2693 would 
accomplish the goal of convincing insurance companies with 
unmet obligations to Holocaust survivors that they are better 
off cooperating.
    Mr. Chairman, I want to welcome our witnesses today. I look 
forward to hearing their testimony and to a worthwhile 
discussion.
    Mr. Horn. I thank the gentlewoman.
    We will now start with the first presenter. We have five 
presenters. And when that is finished, we will open with 
questions and we will be able to see where we are. The 
honorable Randolph Marshall Bell is special envoy for Holocaust 
Issues at the Department of State. And I will note in the 
hearing on all of you and the background that you have had, 
that's relevant to this particular situation. And it's very 
impressive for many of us. Mr. Bell.

    STATEMENT OF RANDOLPH MARSHALL BELL, SPECIAL ENVOY FOR 
             HOLOCAUST ISSUES, DEPARTMENT OF STATE

    Mr. Bell. Mr. Chairman, Mr. Waxman, Ms. Schakowsky, ladies 
and gentlemen, I appreciate very much the opportunity to appear 
before the subcommittee today concerning H.R. 2693. The U.S. 
Government is committed to securing equitable compensation for 
Holocaust victims, and in pursuit of that goal, we have 
facilitated prolonged international negotiations and entered 
into several bilateral agreements. We have worked steadily to 
support international cooperative efforts to address and 
resolve Holocaust-era issues. We recognize and salute the 
active role of the U.S. Congress in this regard.
    While we appreciate the purpose of the proposed legislation 
to provide information about Holocaust-era insurance policies 
to assist potential claimants, we do have serious concerns with 
it and the negative impact it could have on the implementation 
of agreements we have concluded with several countries.
    This legislation's demand for information under the threat 
of sanctions against European companies on activities that took 
place more than 50 years ago is contrary to longstanding U.S. 
policy that matters of Holocaust-era restitution and 
compensation should be resolved through negotiation and 
cooperation and dialog. This legislation's mandate for 
disclosure of information on all policies issued in Europe from 
1933 to 1945, rather than information only on those 
policyholders who were likely to have been Holocaust victims, 
could result in the publication of thousands of names of 
individuals whose claims would not be eligible for payment, and 
the subsequent creation of unrealistic public expectation. It 
is also highly likely that some policyholders or their heirs 
would object to publication on the grounds that it violates 
their privacy.
    In my written testimony I have outlined U.S. policy with 
regard to Holocaust-era compensation and restitution. Mr. 
Chairman, I would like to enter for the record the September 
19, 2002 statement made by State Department Deputy Spokesman 
Philip Reeker, in which the United States welcomed the 
announcement that ICHEIC and the German Foundation had reached 
agreement on the processing and payment of insurance claims 
last week. The chief component of this agreement includes a 
provision to make available the most comprehensive listing 
possible of insurance policies issued to potential victims of 
National Socialists.
    As is the case with names currently published on ICHEIC's 
Web site, the listing generated under the ICHEIC Foundation 
agreement will be used to assist potential claimants. Insurance 
companies will research all claims received, using all of their 
electronic and paper records. Claimants do not need to find a 
name on a list in order to file a claim. That was made quite 
clear in the worldwide outreach program launched by ICHEIC in 
February 2000 that has subsequently generated more than 86,000 
claim applications. Sources that will be used to assemble this 
list under the ICHEIC Foundation Agreement include the 1939 
national census which contains information on Jews living in 
Germany as compiled by the German Federal Archives; immigration 
and deportation lists and other registers of German Holocaust 
victims, and electronic lists provided by companies with data 
on some 5 million policies to be matched with the listing 
compiled from the census and archival registry.
    ICHEIC members all accept the ICHEIC Foundation Agreement 
as a valid and worthy result. Representatives of the Claims 
Conference, Jewish Agency for Israel, the World Jewish 
Restitution Organization, the State of Israel, U.S. State 
insurance regulators, and individuals who themselves are 
Holocaust survivors, all have publicly endorsed the agreement, 
including the provision for the publication of names of 
policyholders.
    Mr. Chairman, we share the frustration of many with the 
slow pace of progress of paying Holocaust-era insurance claims. 
However, 2 years of negotiations have now taken place and the 
parties have reached an agreement to do exactly what this 
legislation seeks to have them do; that is, to create usable 
lists of Holocaust-era insurance policies to facilitate the 
filing and payment of claims.
    We think this agreement should be given the opportunity to 
succeed. We are concerned that if the legislation passes, it 
could frustrate or prevent the very goals it seeks to achieve.
    In conclusion, it is the Department of State's view that 
H.R. 2693 would not be in the best interest of claimants, many 
of whom are elderly Holocaust survivors who, as you yourself 
have said, have waited for justice far too long while that 
justice has up to this point been denied.
    I urge you, Mr. Chairman and members of the subcommittee, 
to take this into account during your consideration of a bill 
that may put undue pressure on European insurers to report to 
the Department of Commerce rather than through internationally 
agreed channels. This bill will have a seriously dampening 
effect not only on the recent ICHEIC Agreement, but also on the 
other institutions the United States has helped create and 
nurture under both the Clinton and Bush administrations in the 
bipartisan furtherance of the national interest and of 
longstanding U.S. policy goals. These institutions have 
widespread national and international support, and seek to help 
claimants receive a measure of justice in their lifetime. I 
thank you very much for the opportunity to appear before you 
today.
    Mr. Horn. We thank you for that. We will have a number of 
questions.
    [The prepared statement of Mr. Bell follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. And we now have Dr. Kurtz. Dr. Kurtz is the 
Assistant Archivist for Record Services, National Archives and 
Records Administration. And I believe the gentleman with you is 
Dr. Greg Bradsher, Director of the Holocaust-Era Assets Records 
Project of the National Archives and Records Administration. So 
I assume you are going to have it several ways.

  STATEMENT OF MICHAEL KURTZ, ASSISTANT ARCHIVIST FOR RECORDS 
  SERVICES, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION; AND 
  GREG BRADSHER, DIRECTOR OF THE HOLOCAUST-ERA ASSETS RECORDS 
     PROJECT, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

    Mr. Kurtz. Thank you very much, Mr. Chairman. Dr. Bradsher 
will talk about our contributions and our work with Holocaust-
era records. As you may remember, for several years I was chair 
of the Nazi War Crimes Interagency Working Group and I want to 
take this opportunity to thank you, Congressman Waxman and 
Congresswoman Schakowsky, for your support of that effort which 
is ongoing.
    I have submitted my testimony and I have a statement for 
the record.
    In my oral testimony I would like to highlight several 
points of importance to the National Archives. If H.R. 2693 
becomes law, the National Archives is committed to comply with 
the provisions calling for the establishment and maintenance of 
the Holocaust Insurance Registry. This is in keeping with the 
stated goal of the National Archives Strategic Plan, which is 
ready access for essential evidence.
    We do have several concerns with the legislation that we 
would like to bring to your attention. First and--there are 
three points and they are related. First is the question of 
size and scope of the registry as envisioned. We have heard 
estimates ranging in the range of millions of names, and would 
see the placement of this size data base as potentially an 
undertaking beyond what our current funding would permit.
    And as regards to number of expected inquiries--and I think 
there would be a substantial number of inquiries--we are 
considering setting up a separate Web site to be able to handle 
the inquiries in a very expeditious and quick way.Estimates in 
both of these areas would be essential in costing the impact of 
the legislation.
    Our second and related concern is the funding source of the 
registry. It's unclear to us, at least to the National 
Archives, at least as drafted, if the penalty fees charged 
against noncompliant insurance companies would serve as the 
sole funding mechanism for the development and maintenance of 
the registry. If that is the case, the logic and the structure 
would seem to be reversed. In other words, if insurance 
companies comply with the law, the National Archives would have 
the responsibility of Web access to a potentially huge names 
registry, but would not receive any direct moneys to establish 
and maintain the registry. If on the other hand, the insurance 
companies do not comply--and so the costs of the registry would 
be very low--but we would receive money by way of these fines 
with little end results.
    If the former situation takes place, we would need to rely 
on increased appropriations to meet the legislative 
requirement. If the latter situation occurs--in other words, if 
there is noncompliance but the fines are levied--proper use of 
the fines would be somewhat in question.
    And the third issue relates to the fact that the 
legislation does not have a sunset date for the maintenance of 
the registry on line and a Web-accessible format. We suggest 
that provision would be made for the National Archives to 
maintain the information in a Web-searchable format until the 
year 2020, which is 75 years after the end of World War II, and 
after such time we would still retain the electronic 
information and undertake individual searches when requested.
    Mr. Chairman, this concludes my oral testimony and I would 
be glad to answer any questions and turn things over to Dr. 
Bradsher for some comments.
    [The prepared statement of Mr. Kurtz follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. OK, Dr. Bradsher.
    Mr. Bradsher. Thank you, Mr. Chairman. I have been with the 
National Archives for 25 years and I have spent the last 6\1/2\ 
years as the Federal Government's expert on Holocaust-era 
assets records. The National Archives and Records 
Administration, as you know, preserves and makes available the 
permanently valuable records of our Federal Government. A 
significant amount of records in our custody relate to the 
Holocaust and Holocaust-era assets.
    As we all should know by now, the Holocaust was not only 
the greatest murder in history but also the greatest theft in 
history. During and after World War II, some 30 Federal 
agencies created upwards of 20 million pages of records 
relating to the theft recovery and restitution of looted gold, 
art, cultural property, Jewish communal property, as well as 
the operations of European banking and insurance institutions, 
and slave and forced labor.
    The volume of records that we have to deal with has 
increased somewhat the past several years as a result of the 
Nazi War Crimes Disclosure Act of 1998, which you certainly had 
a role in, Mr. Chairman. All this commends your efforts to make 
sure relevant records are declassified and open to research. In 
fact, amongst the records the CIA just declassified 2 years ago 
are the records of the Office of Strategic Services 
Intelligence Insurance Unit, which none of us knew even 
existed. This unit was established during World War II to 
monitor the operations of European axis and neutral-country 
insurance companies. In fact, every day researchers come to the 
National Archives to use the records relating to Holocaust-era 
assets and find them a very useful source in doing their 
research.
    During the past 6\1/2\ years, much has been accomplished 
toward bringing justice and compensation to victims of Nazi 
persecution. Many issues both old and new are still unresolved. 
Thus, undoubtedly, interest in Holocaust-era assets issues will 
continue for years if not for decades.
    Just as certainly, our agency and its archival holdings 
will continue to serve as important roles in the search for 
truth and justice. Mr. Chairman, H.R. 2693, given our agency's 
role in the Holocaust-era assets research effort, the National 
Archives would indeed be an appropriate location for the names 
registry envisioned by this legislation. As Dr. Kurtz pointed 
out, we do have some questions about its implementation.
    I will shorten my testimony at this time to allow more time 
for questions at the appropriate time. Thank you very much, Mr. 
Chairman.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Bradsher follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. We now go to Ms. Tick, and she is the senior 
staff counsel for the California Department of Insurance.

  STATEMENT OF LESLIE TICK, SENIOR STAFF COUNSEL, CALIFORNIA 
                    DEPARTMENT OF INSURANCE

    Ms. Tick. Thank you for inviting me to speak with you this 
afternoon. I am going to summarize my written testimony and 
I'll be happy to answer any questions.
    California Insurance Code Section 13800 et seq. is the law 
that H.R. 2693 is somewhat based on. It took effect in late 
1999. The documents were due to the Department of Insurance in 
April 2000. However, in March 2000, the Department was sued, 
insurers claiming that the statute was unconstitutional. The 
litigation has been continuous and contentious since March 
2000. The constitutionality of the statute has been upheld in 
the Ninth Circuit Court of Appeals in two separate published 
opinions. However, the statute is still not enforceable because 
the insurers are asking that the orders--that the opinions be 
stayed pending their appeal to the U.S. Supreme Court. So it's 
going to potentially take some time. It's unclear right now 
whether or not the Supreme Court will choose to hear the case.
    What we did receive, though, before the statute was 
enjoined--and actually some companies complied after the 
statute was enjoined--roughly 1,500 insurers who were obligated 
to report. Four groups representing about eight insurance 
companies fully complied; that is, they gave us lists of names 
of policies that either they wrote or related companies wrote 
in Europe between 1920 and 1945. About another four groups 
representing another 43 companies provided partial or 
incomplete submissions; that is, they gave us the names of 
unpaid policies issued to Holocaust victims, whereas the 
California law, just like the Federal bill, requires all 
policies written. And then about 100 additional insurers just 
flat refused to comply. And all the rest basically told us, we 
either weren't around in those days or we searched and have 
nothing to tell you.
    I would like to point out, if I could, some differences 
between the ICHEIC requirements for lists and the German 
Foundation's requirements for lists and what the California law 
requires and what this Federal bill would require, because 
there are significant differences. We were very happy that the 
German Foundation Agreement was resolved. We supported it all 
along. It's a tremendous step forward, but as far as the lists 
go, it doesn't resolve the issue as completely as it should be 
resolved. The ICHEIC requires its member companies to provide 
lists of unpaid policies issued to Holocaust victims. That left 
it up to the company to determine who was a Holocaust victim 
and who wasn't, which is inordinately difficult to do, even if 
you're only dealing with Jewish victims. It is impossible to do 
if you're dealing with homosexuals, Jehovah's Witnesses, 
political dissidents, and the other myriad of victims of the 
Nazis. So it leaves out all those people.
    There was also a problem with the definition of ``unpaid.'' 
The companies told ICHEIC and told California at various 
hearings that they did not include policies that had been paid 
to the Nazis as unpaid, because they considered those policies 
to have been paid. So those policies are not on the ICHEIC 
lists.
    The German Foundation calls for the German companies to 
create a list of policyholders that they already have on 
computer, that they already have digitized. I believe those are 
life insurance policies in force, which I believe would mean 
unpaid, although that's not entirely clear. Those names will be 
matched against this new list of German Jews, and whichever 
names stick will then be published. So it is not the full 5 
million list that will be published. It is a subset of that. 
Again, these are just German names. Policyholders issued by 
German insurers--and again, the California law and the Federal 
law would go further than that to include policyholders from 
all over Europe. Those are just some of the important 
differences.
    Another issue, as Mr. Waxman pointed out, is that most of 
the names published on the ICHEIC list don't come from the 
insurance companies. In fact, 85 percent of them do not come 
from the insurance companies, and those 15 percent that do come 
from the insurance companies are mostly from one company. So it 
seems that the ICHEIC insurers have not been able to truly meet 
even the ICHEIC requirements, which are lesser than the 
California and Federal requirements would be. And I'll be happy 
to answer any questions.
    [The prepared statement of Ms. Tick follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. Before we move to Mr. Waldman, I would like to 
know who was the author of the California law. It's a very 
fascinating situation. So do you know which State senator or 
assembly man?
    Ms. Tick. Assemblyman Wally Knox, who is no longer in the 
assembly. He's from Los Angeles.
    Mr. Horn. He is a very creative author, to say the least.
    And now, Mr. David Waldman is vice president and chief 
operations counsel of MONY Life Insurance Co.

STATEMENT OF DAVID WALDMAN, VICE PRESIDENT AND CHIEF OPERATIONS 
                COUNSEL, MONY LIFE INSURANCE CO.

    Mr. Waldman. Good afternoon, Mr. Chairman and members of 
the subcommittee, my name is David Waldman. I'm the vice 
president and chief operations counsel of MONY Life Insurance 
Co., formerly the Mutual Life Insurance Co. of New York, which 
was chartered in 1842 and issued the first mutual life 
insurance policy in the United States. It was my responsibility 
to provide legal advice to the team of individuals at our 
company who prepared and filed the reports required under the 
various State Holocaust Victims Insurance Relief Acts, 
including that of California.
    Thank you for inviting me to testify today and for 
affording me the opportunity to share with you our experience 
in complying with the California act. In response to the 
enactment of the various State Holocaust Victim reporting laws 
applicable to insurance companies, MONY conducted an extensive 
and exhaustive examination of its records relating to its 
European business, including an attempt to identify any 
policies sold to persons in Europe that would have been in 
effect between 1920 and 1945. Such records that did exist 
indicate that MONY sold life insurance and annuity products in 
Europe in the early 1900's. However, MONY completely 
discontinued writing new business in Europe by 1914. Moreover, 
it appeared in the 1920-26 time period, MONY disposed of 
virtually all its existing European business by transfer to 
European-domiciled insurers.
    There were a number of policies in various European 
countries that were not transferred and we conducted an 
investigation of any documentation we might have concerning 
them. There were several boxes of paper files, related record 
cards on microfilm, and policy payment vouchers in the archives 
of our record center dating back to the relevant time period. A 
review of our paper files resulted in the identification and 
inputting of 6,813 potentially relevant policies.
    The next step was the retrieval of material data on these 
policies as well as on an eventual 4,700 additional policies 
which were identified in our records center as potentially 
relevant. This investigative process resulted in the definite 
identification of 6,149 policies sold to persons in Europe that 
were in effect in Europe between 1920 and 1945. We reviewed our 
records from that era, including cards denoting policy status 
in numerical order, covering the entire period in question, and 
vouchers evidencing payment dating from 1926.
    The data obtained from this research, together with any 
additional information obtained from our files, was then input 
into our data base and organized into a format conforming with 
the prescriptions of the act.
    Subsequent to this initial examination, we embarked upon a 
second phase which consisted of the direct review of all of our 
policy records during the relevant time period and 
identification of the policies derived from those records sold 
to persons in Europe that were in effect between 1920 and 1945. 
The number of policies identified in the second phase was 
27,603. The data for these policies was combined with that for 
the 6,149 identified in the first phase and incorporated into a 
report reflecting the data for a total of 33,752 policies.
    The review of our records resulted in our finding only two 
cases identifiable as Holocaust victim claims, one with an 
agency of record of Brussels and the other in the United 
States. Both included references to concentration camps on the 
death benefit voucher as the cause of death. One indicated 
payment of proceeds in 1945 and the other in 1950. In addition, 
there was one claim with the cause of death listed as killed by 
Germans, and payment of proceeds was indicated in 1949.
    The interpretation and inputting of data from our files was 
an extremely resource-intensive and time-consuming task. We 
eventually had four persons in our operations area and three 
temporary workers dedicated full time to the project, and 
expended over 8,286 hours in identifiable staff time. The work 
did serve as the basis for our reports for all the States that 
have enacted Holocaust Victim Insurance Relief Acts, although 
some adjustments were needed to define and populate the data 
bases used in the various States due to the differing wording 
in their laws, particularly in the time periods and geographic 
areas covered. The data base we created also allowed us to 
respond in quick order to inquiries we received on particular 
individuals either directly, through State insurance 
departments or from the International Commission on Holocaust-
Era Insurance Claims.
    I may add that in no case was there any documentary 
evidence of the failure on our part to pay, or an improper 
payment of, the proceeds of a policy on the life of a Holocaust 
victim or the claim of a Holocaust survivor, or any attempt on 
our part to avoid our contractual obligations under any of the 
policies found in our records.
    In closing, I would like to express my appreciation to the 
extremely dedicated group of individuals MONY Life assigned to 
this project, who worked tirelessly and with heartfelt concern 
for the subject matter until it was completed, and to MONY Life 
which willingly devoted the resources necessary to do a good 
job not only because it was the law, but also because it was 
the right thing to do.
    And I would be happy to answer any questions at the 
appropriate time.
    Mr. Horn. Thank you, Mr. Waldman.
    [The prepared statement of Mr. Waldman follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. I am going to start the questioning and then turn 
it over to my colleague, Mr. Waxman. But let me ask Ambassador 
Bell, to start with, what is your basis for stating that 
enactment of H.R. 2693 would undermine the international 
Commission process?
    Mr. Bell. Let me, if I may, begin by noting that the U.S. 
Government in this matter--my predecessor, James D. Bindenagel, 
probably told you all in November--has been an observer to 
these negotiations, albeit a very active and to the best of our 
ability informed observer rather than a direct participant. So 
everything I had to say orally and in my written statement and 
I shall be saying in questions is based on that observer status 
and the information that comes to us. So it is all to the best 
of our knowledge.
    To the best of our knowledge, this, like other negotiations 
in which the United States has been a direct participant, has 
turned on the creation of an exclusive mechanism or venue for 
the settlement of claims. The basic dynamic of the negotiation 
has been you come across--``you'' meaning in this case the 
companies--with that which we require, ``we'' being the victim 
side of the table--the Jewish groups and the State regulators--
and we will consider that this is the exclusive venue for 
settling these claims. And if you then remove that exclusivity 
or if you proclaim it to be defective or you proclaim it to be 
replaced by another mechanism, you have gotten to the very 
heart of the political negotiation.
    Mr. Horn. Just for the record here, who were the members of 
the Commission?
    Mr. Bell. ICHEIC consists of, of course, its own 
leadership. It also involves the State regulators from States 
in the United States. It involves the Conference on Jewish 
Material Claims Against Germany, which also deals with claims 
against other countries in Europe as well. It involves the 
World Jewish Restitution Organization. It involves the Jewish 
Agency for Israel, the State of Israel, and it involves, of 
course, also the German companies, the German regulators, and 
the German Foundation.
    Mr. Horn. Are most of the commissioners very well with 
history and experience on that Commission, or are there a lot 
of politicians there? Not that I am against politicians.
    Mr. Bell. Only if you consider officials of States of the 
United States to be politicians. But most of the people who 
have participated in this have worked in these issues quite 
professionally, quite well, with strong belief and strong 
motivation from their very diverse perspectives.
    One of the things that has made this such a lengthy and 
painful process has been that it represents great diversity. 
What could be more historically divided than the two sides of 
such a table? Because all of them, however, believe so strongly 
in what they are doing, it has been necessary to establish 
confidence among them, and many of the things that happened 
over these past few years come under that rubric.
    Mr. Horn. Would you agree that until very recently the 
Commission proceeded at a glacial pace?
    Mr. Bell. I think what you need to do when answering that 
question, or even posing it, is look at what has proceeded. It 
has been the negotiations. And I think I just offered an 
answer. It isn't the Commission so much. The Commission 
consists of the people sitting around that table and 
negotiating. It took a very long time for them to reach 
conclusions, arrangements, detailed accomplishments, which they 
all support; and they all now publicly do. It also took a lot 
of money, as has been noted in many of the press reports on 
this, and that money in large measure has gone for research and 
archival work, the provision of auditing and monitoring 
mechanisms.
    Mr. Horn. You state that the agreement reached last week 
does exactly what H.R. 2693 would have the insurance companies 
do. Could you elaborate on this point?
    Mr. Bell. Mr. Chairman, if I may have a minute or two to do 
that, I would be happy to. What we are really talking about 
here is the strongly shared objective. I very much endorse and 
pray that the activities of this committee, the subcommittee, 
Mr. Waxman, yourself, Ms. Schakowsky, try to create 
circumstances in which people who have any reason whatever to 
believe that they may have had an unpaid Holocaust-era 
insurance claim, can find the tools and the information 
necessary to move forward and have processed such a claim. 
That's what we all want to achieve.
    What is at issue here is whether to pursue the publication 
of a great many names that are not directly related to 
furthering that end, especially if at the same time that 
activity undercuts the political basis on which the recent 
agreement rests. If I could just take a moment to tell you, if 
it's of interest to you, what I know of this agreement with 
respect to the question you just posed. Let's look just a 
minute at the key elements of the agreement. I don't wish to 
digress if you don't wish me to do so. I will do it in short 
order.
    Mr. Horn. Don't rush. I am for getting to the bottom of 
things.
    Mr. Bell. All German insurance companies will be required 
to process claims, both those that name a specific company and 
those that do not, using the ICHEIC standards and guidelines. 
And let me address in that connection--the German companies 
will also be required and have agreed to deal with the business 
that they were doing outside Germany, in other countries in 
Europe.
    I think that addresses one of the points one of the other 
speakers raised. The provision for processing these claims 
involves what are called relaxed standards of proof. It is not 
incumbent on a claimant to come forward with documentary 
evidence that person could not possibly obtain. They need show 
only the plausibility of the claim under a very relaxed 
standard. The burden of proof immediately shifts to the German 
company. That company then has to show either that the claim is 
not plausible or it has to immediately process it and show how 
much it is going to pay. It imposes ICHEIC valuation rules. 
That is what the money of that era translates into in the money 
in this era, and it imposes it on all the companies. It imposes 
it also for blocked account claims. That is, when policies were 
paid out during the Nazi era into accounts to which under Nazi 
law nobody, practically, had any access. That payment doesn't 
count. It has to be paid again. It deals with publication of 
lists, and I will give you some more information on that in a 
moment.
    With matching, it provides for audits, including what's 
called a second-stage peer review in which the companies are 
submitted to rigorous audits a second time over. It submits 
even the non-MOU companies to audits by the German regulators. 
It provides for a monitoring group under Lord Archer, which 
will further ensure MOU insurance companies' compliance. It 
involves an appeals mechanism and, of course, it has provision 
for funding which breaks down to $100 million of claims and 
related expenses and $175 for humanitarian purposes; as the 
panelist pointed out, no credits for prior payments by the 
companies.
    Let us look for just a minute, if we may, at first what the 
current state of publication of names is, and then what will 
happen under this agreement. There was a very extensive 
outreach program undertaken by ICHEIC in the year 2000. There's 
an important point we need to remember about this; that is, it 
wasn't on the basis of lists that this outreach occurred. It 
was on the basis of going out in many directions, not only 
through archival research but also through publication of the 
fact that we're looking for claims, and it produced 86,472 
claims on policies. The sources for that outreach included 
research in European public archives including the Vienna State 
Archives which hold the 1938 asset declarations--people leaving 
the German Reich--and archives in the United States, Europe, 
and the former Soviet Union. It involved lists provided by the 
MOU companies, that is the ICHEIC members which were cross-
matched with Yad Vashen's data base on Holocaust victims, and 
that was agreed by all the parties by ICHEIC. It involved also 
sources in the Czech Ministry of Finance, the Dutch Insurance 
Association, and the Washington State Insurance Commissioner's 
Office. So that's what is out there.
    What now, as I detailed earlier, they propose to do is 
reach out to other lists for publication, reaching back to the 
1939 national census information in Germany on Jews living in 
Germany at the time, immigration and deportation lists and 
other registers of German Holocaust victims. These are from the 
archives that are recommended by the experts participating in 
the negotiation, electronic lists provided by companies with 
data on 5 million policies to be matched with the listing 
compiled from the census and archival registers, and then 
additional research on the 1938 asset declarations that is 
underway in public archives supplementing ICHEIC's research.
    So what actually happens: You take all of that, everything 
from that archival information--the German companies have 
already an electronic data base of 5 million Holocaust-era 
policies--and you check everything that comes out of that 
effort against those 5 million policies.
    I think it's important also to recognize what happens if 
you publish names in great quantities that do not pertain in 
any way to this effort. There is a sort of human element in 
play here, and that is that people, if their names appear, or 
appear to appear, will of course conclude emotionally and in 
many other ways that they have an expectation. Again I say, I 
only know what people tell me, but I know a great many 
participants in the process spend a great deal of their time 
talking with people who under, you know, the rigors of further 
evidence do not have a claim and are gravely disappointed when 
they so discover.
    We operate, the U.S. Government, on the premise that the 
participants must be satisfied. And I'd like to just leave the 
most important of my contentions in, you know, a sort of 
summation of this. If the Claims Conference, the World Jewish 
Restitution Organization, the State of Israel, the survivors, 
and the state regulators believe that this mechanism gets to 
the totality for--it has been said to me over 99 percent of the 
totality of the field--then the executive branch of the U.S. 
Government is hardly going to question them.
    Thank you for your indulgence.
    Mr. Horn. Thank you.
    The gentleman from California, Mr. Waxman, for 
interrogation.
    Mr. Waxman. Thank you very much, Mr. Chairman. For the 
record, I wonder if we could have a copy of the agreement for 
the record, so we could put the----
    Mr. Bell. Well, that--Mr. Waxman, again, I get back to, you 
need to get that from the direct participants. I do not have 
that with me today. I can ask the Commission to provide it to 
you, and I will immediately do so, sir.
    Mr. Waxman. Mr. Bell, I appreciate all that you had to say, 
but notwithstanding that--I have some questions about the 
German agreement, but I still think that the legislation is 
needed, because I'm skeptical that the agreement is going to 
produce anything like a result that is going to satisfy 99 
percent of the potential claims that are out there. I think 
it's going to fall far short.
    But let me pursue some questions about this German 
agreement, even though we'll have to get a copy of it for the 
record from the participants.
    Mr. Horn. Without objection, that will be put in the 
hearing record at this point.
    Mr. Waxman. Ambassador Bell, approximately how many 
policies will be included in this new data base being provided 
by the German companies?
    Mr. Bell. Well, again, sir, if you want to get into the 
particulars of their numbers, I would strongly suggest it would 
probably be wise to call direct participants in the negotiation 
to your hearing, to this or another one.
    Mr. Waxman. Well, you are suggesting to this committee that 
you don't think legislation would be necessary, as I understand 
your views, because you feel that the German agreement is going 
to satisfy the problem.
    Mr. Bell. I'm reporting to you, sir, that which is reported 
to me by the direct participants in the negotiation.
    Mr. Waxman. Do they tell you how many policies are going to 
be included in the new data base?
    Mr. Bell. I don't think you can know how many policies are 
going to be included in the new data base until the agreement 
has been given a chance to work. You know, it has to actually 
go into operation. It is very likely that it will turn up a 
large number of new claims, and then we will know the answer to 
that question.
    Mr. Waxman. How soon after the agreement is finalized do we 
expect the 5.5 million policyholder names to be turned over to 
ICHEIC?
    Mr. Bell. The 5-plus million figure will be used as a 
company list against--as I understand it, against which the 
products of the other lists I have delineated will be matched. 
That 5.5 million figure is not a list that is to be published; 
that's my understanding.
    Mr. Waxman. But it's to be turned over to ICHEIC?
    Mr. Bell. I am not sure it's turned over to ICHEIC. I 
believe that the companies cooperate in the mechanism. It is 
probably----
    Mr. Waxman. Using the ICHEIC mechanism?
    Mr. Bell. Right.
    Mr. Waxman. How many criteria will be required for a policy 
match between the policy data base and the list of German Jews 
to be released for publication?
    Mr. Bell. Again, Mr. Waxman, I cannot speak to criteria. 
There is just this limitation that, as an observer to the 
negotiation, we don't have all the technical data. And I would 
have to respectfully refer you to the participants.
    Mr. Waxman. You indicated that these companies are going to 
not only deal with the Jews who had lived in Germany, but Jews 
who had lived in other countries. When we had a hearing in 
November, RAS said they mostly issued policies in Hungary and 
elsewhere outside of Germany.
    Does the German policy data base include policies issued by 
RAS or other German subsidiaries that issued policies outside 
of Germany? And how would you match them against the list of 
German Jews if their beneficiaries lived outside of Germany?
    Mr. Bell. My understanding, sir, is that the agreement 
covers all of the companies that are regulated by the German 
regulators. I don't have that list; ICHEIC has that list. 
Estimates of how many that is have informally come my way of 
approximately 350 companies.
    It is further my understanding that the Foundation 
agreement covers the foreign-owned portfolios of these German 
insurance companies. It logically follows from that any German 
company regulated by the German regulators would turn over all 
information concerning--or the agreement would cover that 
company's portfolios outside Germany.
    Mr. Waxman. During our November hearing, the committee 
learned that ICHEIC companies that signed the ICHEIC memorandum 
of understanding, or the MOU companies, are only required to 
publish names matched against the Yad Vashem data base.
    Ambassador Bell, should the State Department be concerned 
that the Yad Vashem data base contains the names of only about 
half of the Jewish victims of the Holocaust?
    Mr. Bell. We base our concerns and our level of concern in 
general and in particular on how the victims' organizations 
react to what has been achieved. I cannot go behind that. I 
cannot usefully offer you anything but what all of them have 
said to us. We have conscientiously spoken with the leadership 
of each of these organizations and groups to ask them whether 
they are satisfied with these provisions.
    Mr. Waxman. Well, I have a lot of detailed questions that I 
would like to have responses to, but your last statement seems 
to indicate that you are really not going to look at----
    Mr. Bell. How we see our role in this is in trying to be 
informed, as much as we can. The participants in the 
negotiation conduct the negotiation. We endeavor to do two 
things. One is to keep track of whether they are satisfied with 
what is proceeding. We endeavor to learn from them whether what 
they have achieved will cover the entire range of prospective 
claimants and ask them actively whether that is the case.
    Mr. Waxman. In September 2000, when the case against the 
California Holocaust Victims Insurance Relief Act was about to 
be heard in the Ninth Circuit Court of Appeals, I wrote a 
letter, also signed by my colleague, Representative Schakowsky, 
urging the U.S. Government not to intervene in that case.
    Mr. Bell. Yes, sir.
    Mr. Waxman. It was just after the agreement with Germany, 
and we were very concerned about emerging reports about 
ICHEIC's abysmal record on claims handling. As you know, 
Ambassador Bell, our request was denied.
    But in his response to our letter, Solicitor General Seth 
Waxman--a friend, but not a relative, as far as I know--added, 
``Should the German Foundation fail to be funded and brought 
into full operation, or should the United States conclude that 
ICHEIC cannot fulfill the function for which it was created, 
the United States will certainly reconsider the balance 
reflected in his views on the constitutional issues.''
    Is this still the U.S. Government position?
    Mr. Bell. The U.S. Government position on the California 
statute, as put forward by the Department of Justice, to my 
understanding, has not changed. The Department of Justice has 
continued actively to find--and I would not speak for them. I 
can only tell you I understand informally that their arguments 
turn on constitutionality as well as extraterritoriality. That 
has provided a difficulty for us again with regard to the 
legislation under consideration here today.
    If I understand it correctly, section 9(a) provides for 
ceding to state legislatures a central role in creating 
legislation, additionally to that which you yourselves put 
forward. We would probably consult with the Department of 
Justice as to whether that creates the same constitutional 
problems.
    There was, as you know, a case in Florida which was similar 
to the--in its handling--to the California statute, in 
consequence of which there are two districts of the Federal 
court system that have taken diverging views on almost the same 
issue, at least as the lawyers inform me, which is one of the 
reasons that government lawyers in the executive branch 
consider that there is a prospect of this matter coming before 
the Supreme Court.
    Mr. Waxman. As I understand what I hear you saying about 
your position, even if the ICHEIC process weren't working--
because we have seen it's paid barely 1 percent of the claims, 
and even if the German Foundation funds haven't been 
transferred or allocated properly, if some of these outside 
groups are saying they are satisfied, you are not going to look 
behind what they say.
    Mr. Bell. Well, Mr. Waxman, my understanding is that if the 
agreement is permitted to work, there will be a much more rapid 
and highly accelerated processing of claims discovery and 
processing. That is certainly the hope of all of the 
participants. So we would by no means conclude at this 
juncture, after last week's development, that the ICHEIC 
process is not working.
    Again, I think it would probably be best, if I may be so 
bold, to recommend that the subcommittee or the full committee 
call direct representatives of ICHEIC and of the ICHEIC 
negotiation.
    Mr. Waxman. When we did have Mr. Eagleburger here before us 
in November, I asked him if he had opposition to H.R. 2693, and 
he said no. Representatives from the National Association of 
Insurance Commissioners and the Jewish organizations also 
raised no objections. Why then does the State Department 
believe that the bill might undermine ICHEIC?
    Mr. Bell. Well, it's my objective and best informed view 
that the circumstance at this juncture is materially different. 
The process which led to the agreement last week rested on the 
assumptions I earlier outlined and that, in consequence of now 
having reached this agreement, it would be highly unlikely that 
the one side of the table--that is, the German companies' 
side--would continue to cooperate in the manner they have 
obligated themselves under the agreement to do if there were 
created an alternative reporting requirement.
    I can't state that categorically to you and I would not be, 
you know, in any way honest if I did. The situation has not 
transpired. But every indication we have from the political 
analysis of what led to this agreement inclines us very much to 
that view.
    Mr. Waxman. Mr. Chairman, I'm going to ask for a second 
round, but I know Ms. Schakowsky wants to ask her questions, so 
I'm going to defer to her.
    Mr. Horn. Sure. The gentlewoman from Illinois.
    Ms. Schakowsky. I thank you very much, both of you, for the 
questions that you have been asking.
    Mr. Bell, let me just first react to something that you 
said, that this demand for information from European companies 
on activities that took place in Europe more than 50 years ago 
under the threat of sanctions is contrary to longstanding U.S. 
policy, that matters of Holocaust-era restitution and 
compensation should be resolved through negotiation, 
cooperation, and dialog.
    And in reacting to that, I have to reflect some of the 
impatience, frustration, misery, being distraught, of--of many 
of the people in my district, fewer of the people in my 
district, because in this half century some of the leaders of 
the effort to get restitution have died. Erna Gans, who was one 
of the great leaders we had in Illinois, is now deceased before 
seeing restitution. And so this idea of negotiation, 
cooperation, and dialog has not really yielded what so many of 
my constituents are really feeling.
    So it's--quite naturally, I was very happy to become a 
cosponsor of a bill that sought a way--I mean, I quite frankly 
am so skeptical that this kind of process is going to yield, 
although I'm happy that the agreement was reached. I think that 
we do need to operate on parallel tracks.
    That really wasn't a question, but go ahead, sure.
    Mr. Bell. Thank you, ma'am.
    Well, you know, I, as you may see in my biographic 
statement, worked on quite a lot of what we as a government--
executive, legislative, Democratic, Republican, Independent--
have all been working on with regard to securing payment and a 
dignified measure of justice in their lifetimes to Holocaust 
victims and their heirs.
    We have done this through the agreement we reached with the 
Germans that created the Foundation. That's 10 billion marks. 
We have done this through the agreement reached with the 
Austrians on property claims, which created a general 
settlement fund of $210 million. We have done this through the 
agreement we reached with the French on dormant bank accounts 
and other matters. We have done this by being an amicus in the 
Swiss bank negotiations.
    You all know as well as I the many endeavors that have been 
out there. I can only note that those are, all of them, 
imperfect achievements as they may be--and nobody, including my 
friend Stu Eizenstat, if he were sitting here next to me today, 
would say those are perfection. But what they are is the 
wherewithal to get the best possible deal that all of us who 
participated in it thought we could get after arduous efforts 
so that we can pay people while they are still alive.
    Our concern with what would happen if we undermine the 
agreement of last week is that the lesson of the last 2 years 
would be the lesson of the next many years. We all know that if 
that agreement had not come about, people in many quarters, not 
merely in the Congress of the United States, but also in the 
German Bundestag for different reasons, among N G Os, would 
have very likely set about taking apart the ICHEIC process. My 
own impression, had it come to that, is that we would not be 
paying insurance claims and the publication of lists would not 
lead to their payment.
    What we wish to do, all of us, from our various 
perspectives is, get people paid in a dignified and 
conscionable manner while there is still time.
    Ms. Schakowsky. I guess I would also question the absolute 
conclusion that you have reached that the publication of names 
in a broad way would create expectations that would be 
devastating. It's hard for me to imagine people more devastated 
than they are, and the opportunity to put--empower them in a 
greater way than this process does, I think would be a good 
thing to do.
    But let me ask something more specific. Anyone can answer 
it. We're talking with this agreement that has been reached 
only, I--is that only in respect to German companies? What 
about the rest of Europe?
    Mr. Bell. It's with respect to German companies, but 
reaches out far beyond that. ICHEIC claim handling procedures, 
as they existed when our executive agreement was signed in July 
2000, and all those which additionally have been reached as a 
result of these negotiations, then get applied broadly. The MOU 
companies apply them and the non-MOU companies apply them.
    With respect to the subject matter that we have touched 
upon of what happens, you know, for claimants who had policies 
outside the territory of the German Reich, I have attempted to 
explain it to the very best of my knowledge. All the companies 
covered by the agreement then apply that to their--the policies 
they had written outside the Reich's territory.
    There is--let me just add on that point one footnote with 
regard to Eastern Europe. There is the problem, however you go 
about this, of what happened in the Communist era and what 
happened to archives and names and what happened to lists in 
those countries because of Communist nationalizations and 
manipulations of records.
    Ms. Schakowsky. Well, Ms. Tick, then, regarding the scope 
of what the agreement was and what you would hope to do to 
implement in California, how do those differ?
    Ms. Tick. Well, if I can back up for a minute, the ICHEIC 
was formed in 1998 with five or six insurance companies. The 
ICHEIC set up this whole relaxed standard of proof and all the 
claims processes and all the evaluation processes, and it was 
because the German slave labor agreement brought German 
insurers in, that resulted in this small piece of it or 
separate piece of it, the German Foundation Agreement, applying 
to German insurance companies.
    All the other insurance companies, for the rest of the 
world, that you refer to have already been going on through the 
ICHEIC process. The German Foundation agreement brings the 
German companies in. They were refusing to participate in the 
process; now they are in the process.
    So it's not the German insurance companies that are 
bringing in all the rest of them. All the rest of them are in 
already, to whatever extent they were there, and the German 
Foundation brought in the German companies, the business they 
wrote in Germany and the business they wrote outside of 
Germany.
    I think this issue came up before with lists. The lists of 
German policyholders will be matched against a list of German 
Jews, which raises the question of, well, what about the 
insureds the German insurance companies insured that lived 
outside of Germany? They would have nothing to be matched 
against.
    My understanding is that those companies, particularly 
RAS--and I'm not sure; I think there were two or three 
companies that this applies to--will publish their entire 
lists. They will not be matched at all, which actually creates 
a better scenario than basic ICHEIC which--those companies are 
supposed to match their names against the Yad Vashem, which 
Congressman Waxman pointed out only has about half the names. 
And actually they haven't even been matched yet, as far as I 
know. You can see from the numbers of names that have actually 
been published that in all probability they haven't been 
matched yet.
    So there are a lot of little twists and turns on this, but 
for the insurance companies insuring the rest of the world to 
whatever extent they are involved in ICHEIC, the process has 
been ongoing since 1998.
    Ms. Schakowsky. So if you were then to sum up--I'm sorry I 
was out of the room for your testimony; I've looked over it 
briefly.
    Sum up how your legislation would go beyond what this 
agreement does and how it would better be able to guarantee 
some restitution to Holocaust survivors.
    Ms. Tick. Well, it covers more names. The California law 
requires all policies written between 1920 and 1945. The ICHEIC 
system and, I believe, the German agreement require lists of 
policies in force, which would mean policies that are still 
unpaid.
    The German companies and the ICHEIC companies have told us, 
though, if they paid a policy to the Nazis, they consider that 
policy paid, so that policy does not turn up on the list.
    For the ICHEIC companies and the German Foundation 
companies, those names are matched against lists of Jewish 
victims; only the ones that match get published. So there are 
going to be some mistakes in the matching process. Of course, 
it can't be perfect. But the biggest populations that it leaves 
out are those victims of the Nazis that were not Jews.
    There are big groups of victims of the Nazis that were not 
Jews. I think what the California legislature wanted to do was 
get the biggest list possible so that people who thought that 
they had a policy could look and just make a claim. It is no 
guarantee that they are entitled to anything. It just gives 
them the ammunition they need to make a claim, and then it's up 
to somebody else to decide whether the claim is valid or not, 
either in whatever from they choose.
    Ms. Schakowsky. And the opposition to the implementation of 
the legislation, what were those arguments?
    Ms. Tick. Well, there's 2\1/2\ years' worth of litigation. 
There are many--there were several constitutional arguments 
based on foreign affairs, that individual States shouldn't 
participate in foreign affairs based on commerce clause issues 
and due process.
    Ms. Schakowsky. But the arguments wouldn't apply to Federal 
legislation. Were there any rationales for not complying?
    Ms. Tick. For why the companies--well, the California 
companies, by and large, are not the ones that wrote and--are 
not the ones that wrote the policies. It was their European 
affiliates that wrote the policies. And the California 
companies are saying our European affiliates won't give us the 
information, so we can't give it to you.
    And the court's answer to that is, well, you don't have to 
do business in the United States if you can't live up to U.S. 
law. That was basically what the Ninth Circuit said.
    The California companies also said that European law would 
preclude them, European privacy. Somebody mentioned that 
policyholders or survivors, descendents of policyholders, maybe 
wouldn't want this information published. I have never heard--
and I've been working on this since the summer of 1997----
    Ms. Schakowsky. You mean the privacy concerns that were 
raised?
    Ms. Tick. I've never heard any claimant have any privacy 
concerns. By and large, the names of the people on these lists 
are long deceased, and the amount of information that there is 
to even identify them is so sparse that it would be virtually 
impossible to identify anyone.
    Early on, people were saying, well, if these names were 
published, they would be victims of hate mail, etc. I mean, it 
says Goldberg, Joseph, Minsk. There is no way to find him now 
or to find his descendents now. It just doesn't apply.
    Ms. Schakowsky. Can I just--I think it was you, Mr. Bell, 
who mentioned the----
    Mr. Bell. It wasn't with regard to Holocaust victims. I 
would be very much surprised if anybody who is the--him- or 
herself a victim, or the heir of a victim just generally, would 
object to publication. I think it's--the phenomenon is, if you 
take everything in that long historical period that any company 
has on file about any applicant or any claimant or any 
policyholder, you then take in a vast field of people who have 
no connection with the Holocaust whatever; and it is from among 
those--from among that group that this phenomenon has arisen. 
So I don't think----
    Ms. Schakowsky. Maybe I'm missing what you are saying.
    It is also highly likely that some policyholders and/or 
their heirs will object strenuously----
    Mr. Bell. Right.
    Ms. Schakowsky [continuing]. To publication on the grounds 
that it violates their privacy?
    Mr. Bell. Those are people who have no connection whatever 
with the Holocaust. Some of them in the past have said they 
would not want these policy data put forward.
    Ms. Schakowsky. Yes. I would like to yield to Mr. Waxman.
    Mr. Waxman. I have to admit, this all sounds like a bunch 
of excuses. I can't imagine that there are that many people 
that are going to rise up and say, I'm really offended.
    Mr. Bell. I couldn't tell you how many, sir.
    Mr. Waxman. We can't tell how many, but it can't be more 
than a handful. What we know is, we have perhaps millions of 
people who cannot get the satisfaction of their claims against 
insurance companies because their descendents' names are not 
published so that they can make a claim to ICHEIC.
    The idea of ICHEIC was to streamline the process for people 
to make their claims. Under ICHEIC, they would not need the 
policy and the death certificate and all the things that we 
ordinarily require, because the Holocaust made it impossible 
for many of these things to happen. And so ICHEIC was supposed 
to be an abbreviated, simplified procedure. But it can't work 
if people don't have any basic information. And they can't get 
that basic information unless the names are published so they 
can identify that there was a policy. Then the burden shifts 
under the ICHEIC process.
    So, Ms. Tick, let me--could I just----
    Ms. Schakowsky. Sure. Go ahead.
    Mr. Waxman. Ms. Tick, I'm going to pursue this with you 
because you have had experience with the California law.
    Ms. Tick. Yes.
    Mr. Waxman. And before I ask you any questions, let me just 
thank you on behalf of my staff and myself for all the help you 
have given us, working with our constituents who have had 
claims and helping us figure out how to deal with this process.
    Ms. Tick. You are welcome.
    Mr. Waxman. California has this law that has said that if 
you want to do business in California, you should make sure 
that your company, for which you are related and sold policies 
in Europe, publishes the names.
    Now, that hasn't kept, in my view, the negotiations from 
taking place or anything else from happening that Ambassador 
Bell now would argue might be undermined. That law has been on 
the books and has been tested in the courts and now found to be 
constitutional. It hasn't interfered with the agreement that 
has now been reached.
    But the California law and the law we are proposing would 
go far beyond what this agreement proposes; isn't that correct?
    Ms. Tick. Yes. I agree with you, it hasn't interfered at 
all. ICHEIC has gone along all throughout the pendency of the 
litigation on the California law. The German agreement has been 
in negotiation for several years, hasn't--it hasn't moved 
slowly because of the California law. And it came to a 
successful resolution--we are very happy about that--this week.
    The way I see it, the California law, supplemented by the 
Federal law, would only help the process that ICHEIC is engaged 
in, because once someone finds their name on a list, they can 
to make a claim. And that's who they would make the claim 
through; they would make the claim through ICHEIC. There is 
very limited ability to make the claim in any courts that I 
know of--very, very limited. Basically, people would make a 
claim through ICHEIC. All the list does is give them some small 
amount of information, and then they have to make a claim.
    So, if anything, this Federal law would supplement what 
ICHEIC has started, just expand upon it; that's the way I see 
it. And also, all of these companies--with the exception of 
Allianz, that chose not to put their 1 million policy files on 
a computer data base, all the companies already have this 
information on disk.
    Mr. Waxman. And, therefore, they could make it available?
    Ms. Tick. Yes. They could make it available with a small 
amount of work. They don't have to start searching through 
warehouses and transcribing ancient languages into modern 
computerese. It's all there already. It was all done in the 
mid-1990's.
    Mr. Waxman. There are concerns about other ICHEIC companies 
not covered by the German settlement, namely Winterthur, AXA, 
and Zurich. At the time of our hearing last November, 
Winterthur had published four policies, Zurich had provided 20, 
AXA had given information about 191.
    Can we expect additional policyholder names to be released 
by these companies?
    Ms. Tick. Well, they're in the same position as Generali 
which--it's a matter of whether they are made to comply with 
the basic ICHEIC standards. They should take their lists and 
either publish them completely, which is what I would like to 
see, or at least run them through Yad Vashem. But that hasn't 
been accomplished.
    Mr. Waxman. Even though Yad Vashem is going to miss so many 
people?
    Ms. Tick. Yeah. Yeah. Well, that's why I think that the Yad 
Vashem system is--that the system envisioned by the Federal law 
is better; it would cover more people. But these companies have 
not even done what--the lesser standard, what the ICHEIC 
requires of them.
    Mr. Waxman. Tell us the situation with Generali.
    Ms. Tick. Generali has a list of--and these are round 
numbers, but they are accurate. Generali has a list of 360,000 
policies that were in force in 1939. They boiled that list down 
to 90,000 that remain unpaid. And they gave the list of 90,000 
to Yad Vashem, who matched it and came up with 8,388 matches, 
which are the names that Generali has--which are the Generali 
names that are published on the ICHEIC list.
    If Generali were to comply with the Federal law, they would 
hand over--they would publish the full list of 360,000 
policies; and it is entirely possible that people would make a 
claim and would get a letter back saying, Sorry to tell you, 
but your great aunt was already paid in 1954; therefore, you 
are not entitled to anything. And I don't think that would 
cause people problems at all. In fact, the people whom I talk 
to just want know what happened.
    Mr. Waxman. Generali wouldn't even be affected by the 
German agreement, would it?
    Ms. Tick. You know, I don't know off the top of my head if 
Generali did business in Germany. But probably not, because 
they've already made a list of all the policies that they have.
    Mr. Waxman. I have other questions. But Mr. Chairman, I'm 
willing to----
    Mr. Horn. I will move to a few other witnesses, and then 
get back to that.
    Mr. Waxman. OK.
    Mr. Horn. Dr. Kurtz, I am curious. You raise some concerns 
in your testimony about the cost and the funding of this 
project. What kind of effort will it take for the archives to 
fulfill its duties under the act?
    Mr. Kurtz. Well, Mr. Chairman, I consulted with our 
technology experts, and we don't expect that there would be any 
problem from the point of view of being able to convert data 
and create the data base. But building the data base and the 
maintenance of the data base, our estimate for our first year 
of operations would be $1 million, and then $250,000 each year 
thereafter for maintenance, because I think we would need to 
set up a separate Web site and separate data base 
administration, because it would be such a large number of 
names, to be able to efficiently process them.
    Mr. Horn. How are we doing on the Freedmen's Bureau?
    Mr. Kurtz. We are doing very well.
    Mr. Horn. OK. That's something we were able to get $10 
million more.
    Mr. Kurtz. In fact, we are ahead of our schedule for this 
year.
    Mr. Horn. OK. And when do you see that being done?
    Mr. Kurtz. Well, we have a 3-year time period to completely 
the microfilming, and we'll be done on time or before.
    Mr. Horn. Well, let me just go one more since you are under 
oath.
    Mr. Kurtz. Yes.
    Mr. Horn. Where are the Japanese war crimes? Are any in the 
archives anyplace or in the State Department? Do you know?
    Mr. Kurtz. Well, I'm a little bit removed from that since 
I'm no longer the Chair. But it's my knowledge, at least when I 
was involved with it, that there is, compared to the German-
related records, a far smaller corpus to work with. And the 
records that were sent back to Japan by the U.S. Government 
between 1958 and 1961 are over there. I think it's very 
difficult to get access to those records. They are under 
Japanese Government control.
    But everything that's in U.S. Government control is in the 
process of being identified and opened.
    Mr. Horn. Now, there's four members of the Diet that want 
all of that to be open and to get with it. Now, do you know if 
all those records were destroyed?
    Mr. Kurtz. Mr. Chairman--do you have some information on 
that, Greg?
    Mr. Horn. Dr. Bradsher.
    Mr. Bradsher. Interestingly enough, about 2 weeks ago I 
went to the CIA and read a still-classified history of the 
Washington Document Center, which was the institution here in 
Washington that physically housed these records before they 
came to the National Archives and before we sent them back.
    We have been discussing with the Japanese--I met an hour 
this morning with a representative of the Deputy Archivist of 
Japan to discuss this. And sometimes there is a terminology 
problem.
    We returned to the Japanese every record that we basically 
took from them, with a few exceptions.
    Mr. Horn. And yet we had no microfilm of them ourselves?
    Mr. Bradsher. The U.S. Army historians microfilmed a small 
portion, a bunch of historians microfilmed a small portion, and 
during the war itself there was an operation at Camp Ritchie, 
MD, called PACMIRS, Pacific Area Command Military Intelligence 
Research Service, that translated and published these 
translations. In the Pacific, General MacArthur had the Allied 
Translator and Interpreter Section that did the same thing.
    So we were learning more and more that rather than 
microfilming the records, that during wartime itself, ATIS, the 
Allied Translator Interpreter Section, had 2,700 people doing 
this. Until January, I'd never heard of ATIS, and now that's 
all I see, that these records were fully exploited by the 
Americans for war crimes purposes at the time, and we just sort 
of lost record of that. It's like the corporate memory, we all 
didn't know what we were doing before the records came to us.
    Mr. Horn. Is there something at Camp Ritchie?
    Mr. Bradsher. They turned the records over in April 1946 to 
the Washington Document Center, who then turned them over to 
the National Archives in 1948. In 1946, the military gave up 
operation to the Central Intelligence Group, and their 
interests changed from Japan to the cold war and they were done 
with the Japanese situation.
    In Japan, it appears that the records are primarily opened, 
but like our situation, they haven't made finding aids to the 
records; you have to rely on the archivist. Also, some of the 
records are closed because of lawyer/client privilege. Some of 
the war criminals, their attorneys' files are not open for 
research.
    But we have learned a lot just in the last 9 months on the 
strange story of the Japanese records, and I will have an 
article published in the next issue of the Interagency Working 
Group's newsletter explaining this, and will make sure that you 
get a copy.
    Mr. Horn. Well, I'd like to do it before the end of the 
107th Congress, because we all know that they want Japan to be 
our ally and all that, and that's fine. But it seems to me that 
you want to--just as they are doing in Germany--for heaven's 
sake, let's pull it out of the clouds and on to the tables and 
see what is there and clean it up.
    And that's what the four members of the Diet want--a couple 
of them came over to see me on this. If you have any thoughts, 
I would like to hear them. And if we're going to have to 
subpoena somebody, why, let me know on that, too.
    Mr. Bradsher. We can certainly provide in writing to you a 
more detailed capture, exploitation, and return of the records. 
It's something that we have spent a lot of time on in the last 
8 months, since January.
    Mr. Horn. Well, I'm delighted because when we started on 
this, we were told they are not around, etc. And of course I 
suspect, if CIA was involved, we don't know if they are there 
or not. So I think we will get to that.
    Mr. Kurtz. We will get you the information as soon as 
possible.
    Mr. Horn. Thank you. Under the terms of this act that we're 
discussing, the Secretary of Commerce will transfer to the 
Archivist any information filed with the Secretary concerning 
Holocaust-era insurance policies.
    Can you envision any problems with this data exchange?
    Mr. Kurtz. No. And in speaking with our technology experts, 
we do not anticipate a problem with data exchange.
    Mr. Horn. Ms. Tick, I was very interested in what you had 
to say. Do you believe that last week's agreement eliminates 
the need for the California law or/and enactment of H.R. 2693?
    Ms. Tick. No, I don't. Because, as I've said, there are 
differences between what's required under the German agreement 
and what's required under the ICHEIC and what would be required 
under the Federal law. The Federal law requires a broader base 
of information which would be beneficial to claimants.
    Mr. Horn. Do you believe the enactment of H.R. 2693 would 
be helpful in overcoming the legal challenges to the California 
law and other similar State laws?
    Ms. Tick. Well, we believe the California law has already 
been upheld by the Ninth Circuit, so it's already been 
established that it is constitutional. But the additional 
weight of the Federal law would be welcome and would certainly 
help in future challenges.
    Mr. Horn. Do you believe we should move forward then?
    Ms. Tick. Yes, I think you should move forward. I don't 
think that the Federal law does anything to disrupt ICHEIC or 
does anything to disrupt the ability of organizations helping 
claimants to get paid. I think it only helps.
    Mr. Horn. Well, thank you very much.
    And, Mr. Waldman, you state that MONY Life devoted the 
resources necessary to comply with the California statute, 
``not only because it was the law, but also because it was the 
right thing to do.''
    Why are not other insurance companies choosing to fight the 
statute in court rather than adopting the same attitude?
    Mr. Waldman. It's not for me to say what other companies 
are doing. I mean, we did--we understood the importance of the 
law and the seriousness of the subject matter, and complied to 
the best of our ability.
    Mr. Horn. Do you have any suggestions for improving H.R. 
2693?
    Mr. Waldman. Well, I guess, as with all the laws, companies 
have varying amounts of files, whether the completeness of 
them, the legibility of them, the relevance of them. And I 
guess there has to be some discretion within the--in the case 
of the State's insurance department, I suppose in the 
administration, in the regulatory scheme of things as to how 
the law would be applied, in certain situations, the 
terminology is not going to match the records of the companies 
versus what's in the--what would be in the bill. Policy--might 
have policyholder versus insured versus beneficiary, as to what 
the domicile is.
    One particular point, I think, is that in all of the State 
laws, when a date comes up, it's the date of death rather than 
the date of birth. And I think, at least from our standpoint, 
we would have very little material on date of birth of many 
policyholders because we have--the records that we do have 
generally are going to be when the policy went out of force for 
payments that weren't made.
    And probably from the standpoint of the survivors and the 
claimants, as well, I think they're more likely to know the 
date of death, even though not exactly certainly, because of 
the circumstances of the war, but rather than the date of 
birth.
    So, I mean, if it comes to the point where there is 
questioning with the company and you find that you have a 
possible match and you get to negotiations, then you can go 
into detail of whether you have date of birth or not.
    But I think if you want to pick a date that would be on the 
report, I think the date of death is probably more helpful and 
more likely to be in the records of the company than the date 
of birth.
    Mr. Horn. Are there any other ways to get the fact that the 
individual was alive at a certain time--because, as I remember, 
some of the Protestant churches changed a lot of their files 
when the Nazis were steaming up in 1937-1938, and they changed 
some of the parish names because they didn't want to be a Jew 
in that time. Will any of that help in terms of looking at some 
of those files?
    Mr. Waldman. I guess within our own records we would have a 
record of possibly when the policy was issued, certainly when 
it went out of force. So we are assuming that the person was 
alive at the time it went out of force, so we would know that 
they would be alive at that time. But as far as whether they 
are still alive, that information we wouldn't have. But whether 
they were alive during the period in question, we would have, 
to the extent that we know when it went out of force.
    So if it went out of force after 1920, if that's the year 
that we pick, or 1933, I think the Federal--the California one 
I think was 1920--then, to that extent, we would assume that 
they were alive at that point.
    Mr. Horn. The gentleman from California.
    Mr. Waxman. Just a few questions for the record, Mr. 
Chairman, because you have covered some of these points.
    But, Mr. Waldman, based on what you know of H.R. 2693, do 
you believe that lists already compiled by MONY Life Insurance 
would enable you to be in compliance with the proposed Federal 
law?
    Mr. Waldman. Well, certainly the scope of policies that 
were covered by the State laws would be--in toto, would be 
greater than what's subject to the Federal law, because you 
have, for example, 1933 to 1945 instead of 1920 to 1945.
    The only question from our standpoint would be, we would 
have it within--the individuals and the policies would be 
within the data base. It would just be a question of whether we 
would need to provide additional detail, for example, date of 
birth versus date of death. We'd need additional research 
perhaps.
    I don't think we would have much on that, but we'd have to 
do additional work on that. But as to the population of 
policies, it would already be covered by having complied with 
the State laws.
    Mr. Waxman. Thank you.
    Dr. Kurtz, you also mentioned you have concerns regarding 
the size and scope of the registry envisioned. I'd like to know 
your thinking about that. And can you suggest reasonable ways 
to limit the size and scope?
    Mr. Kurtz. Actually, what I was trying to note, Congressman 
Waxman, is that it was really related to the second point about 
funding that is going to be, because of the potential size of 
it, a large data base, a large Web site; and so adequate 
resources are needed, more than trying to figure out ways to 
slim down the size.
    Mr. Waxman. Dr. Bradsher, the California law and the 
parameters of ICHEIC require the review of all policies between 
1920 and 1945. H.R. 2693 only requires information about 
policies in effect between 1933 and 1945. Do you think this 
would significantly cut the amount of policy information that 
would have to be provided?
    Mr. Bradsher. I'm not an expert on this subject, but I 
remember some testimony that was given before a House committee 
several years ago. And talking to Yakov Lazowitz, who is with 
the Yad Vashem archives, it seems that an awful lot of policies 
were sold in the 1930's because people--even Jewish salesmen, 
targeted Jews, saying, Things are getting bad here, you need 
insurance. And this was more of a 1930's phenomenon, let's say, 
1920's.
    But I really can't truthfully say that--what date. But Jews 
were certainly targeted for insurance in the late 1930's, where 
they were just targeted to be sold insurance. And as we know 
now, that's--some of these people were sold the policies and 
then liquidated, and then the Nazis cashed in on them, on the 
policies.
    Mr. Waxman. Dr. Bradsher, the Nazi regime confiscated 
policies and killed Jews based on the Nuremberg laws that 
identified anyone with at least one Jewish grandparent as a 
Jew. Many of those who were persecuted did not even consider 
themselves Jewish, or maybe didn't even know that they had 
identifi--they didn't even know that they had grandparents who 
were Jewish. So their names wouldn't be on census lists, and 
they didn't have identifiable Jewish names that might lead 
people to put them on a list.
    Do you think this will have an impact on the ability to 
collect a comprehensive list of Jews who may have held 
policies?
    Mr. Bradsher. I know that the Yad Vashem archives, as you 
have indicated, they had 1,000 people taking every single 
document they had and keying it into a data base. And many 
times, especially in Polish towns, people spell their name one 
way on the census of the town, and then the Germans spelled it 
another way, so there is a problem there.
    I know that, in 1962, the Swiss banks, when they were 
trying to come to agreement on dormant accounts, they hired 
rabbis to go through lists and try to identify Jewish names, 
and found it impossible. So that--the problem of names is--I 
don't think can be overcome unless someone is willing to invest 
the time and money, going through the records of the National 
Archives, the Holocaust Museum, the Yad Vashem.
    It's simply doing a worldwide census. You're going to end 
up not capturing everyone. And even if you capture all names of 
all existing humans, then in terms of their religion--that's 
one problem, as Ms. Tick pointed out, that Communists, 
homosexuals, gypsies, and other people are also part of these 
victims. And that presents a whole 'nother series of problems.
    Mr. Waxman. Ambassador Bell, I believe you mentioned that 
about 2,000 additional names will be added to ICHEIC's Web site 
this week. Are those names from member companies' records? And 
if not, from where?
    And did ICHEIC make an announcement regarding the release 
of those names?
    Mr. Bell. I believe, sir, it's correct that ICHEIC did make 
an announcement concerning that, although again, you know, 
ICHEIC usefully needs to be interviewed on this.
    It is my understanding that those are claims which arose 
out of the outreach project that I mentioned to you earlier. 
And like a great many things, they awaited the conclusion of 
this agreement to come into the pipeline.
    One of the things I would add that comes on line with the 
agreement coming into force is the use of this list of names 
and matching model as an example for the non-MOU companies, 
including--we have made mention of some of the Swiss companies 
where there has been no movement. Many of those companies, it 
is my understanding, sir, have been awaiting the outcome of 
this agreement. And it is certainly my profound hope, and I 
believe the expectation of others in the process that they 
would now replicate this approach in what they are doing.
    So, again, it gets back to the point earlier of, will there 
be an acceleration of all of this when the agreement begins to 
operate? And my answer to that would be yes.
    Mr. Waxman. Well, we all hope so.
    Mr. Bell. Thank you, sir.
    Mr. Waxman. Mr. Chairman, I want to thank all the people 
who have testified in this panel. I wonder if we could leave 
the record open so that if--there may be additional questions 
we'd like to submit to the witnesses and have them respond in 
writing for the record, so we can get those responses in the 
record.
    Mr. Horn. Certainly. Absolutely. Put that in the record at 
this point.
    And we do have the staff of both the majority and the 
minority, and the members, might send you some questions--and 
you are all under oath, etc.
    I am looking very carefully at Dr. Greg Bradsher. I never 
saw such a very fine scholar in so many single spaces of what 
you have done. And I would just like to ask you now that I've 
taken notice. You've got special assignments with the 
Interagency Group on Nazi Loot assets; you have got U.S. 
Representative, Independent Commission of the Experts 
Switzerland Meeting on the Nazi Gold Records; the Looted 
Archives and Libraries at the U.S. Holocaust Memorial Museum; 
and about 100 here of items.
    Now, that leads me to getting back to the International 
Commission, which we haven't met. A lot of the people, I think 
on those points here, are on that International Commission, 
aren't they? And I'd just like to know your feeling on whether 
they will do something or drag their feet.
    Mr. Bradsher. I can't speak for commercial companies and so 
forth, but I echo Ambassador Bell's comments that all the 
people that have labored so hard since 1996 when Senator 
D'Amato and others initiated this effort, I think they have all 
been very dedicated and very professional. And I would not list 
names, but there are several of them in the room here today 
that just simply because of their interests have come to attend 
this hearing.
    I think our fellow citizens are very lucky that we have 
people that are knowledgeable and caring about the survivors 
and victims.
    Mr. Horn. Well, that's helpful. And with that, if my 
colleagues don't have any more questions here? OK.
    I want to thank the people that helped in preparation of 
this: our staff director, Bonnie Heald; Bonnie is back here. 
Henry Wray had to go to a family situation, and is the senior 
counsel. Dan Daly, to my left, your right, is the counsel 
today. Chris Barkley is the majority clerk.
    The minority staff: Michelle Ash, counsel; and then Zhava 
Goldman of Mr. Waxman's office; Jean Gosa, minority clerk; 
David McMillen, minority professional staff; Jonathan Samuels, 
legislative director for Ms. Schakowsky; and the court 
reporters, Nancy O'Rourke and Tina Smith. Thank you very much.
    And, with that, we are adjourned.
    [Whereupon, at 3:52 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
